                                                            United States Department of State
                                                            and the Broadcasting Board of Governors

                                                            Office of Inspector General



                                                                  AUG 15 1011


MEMORANDUM

TO:            DCIO/BMP - Janice J. Fedak~
                                          /;1
FROM: 	        orG - Harold W. Geisel /     J

SUBJECT: 	     Report on Audit ofReplacement ofAging Desktop Workstations at the
               Department o/State With Funds Provided by the American Recovery
               and Reinvestment Act (AUD/CG-II-31)

The subject report is attached for your review and action. As the action office for
Recommendation 1, please provide your response to the report and information on actions taken
or planned for the recommendation within 30 days of the date of this memorandum. Actions
taken or planned are subject to followup and reporting in accordance with the attached
compliance response information.

The Office of Inspector General (orG) incorporated your comments as appropriate within the
body of the report and included them in their entirety as Appendix C.

orG appreciates the cooperation and assistance provided by your staff during this audit. If you
have any questions, please contact Evelyn R. Klemstine, Assistant Inspector General for Audits,
at (202) 663-0372 or Richard Astor, Director, Division ofConlracts and Grants, at (703) 284­
2601 or by email at astorr@state.gov.

Attachments: As stated.

cc:                        (b) (6)
                           (b) (6)
             (b) (6)
             (b) (6)
                                         UNCLASSIFIED


                     United States Department of State 

                  and the Broadcasting Board of Governors

                         Office of Inspector General




                                       Office of Audits 



        Audit of Replacement of Aging Desktop Workstations 

         at the Department of State With Funds Provided by 

            the American Recovery and Reinvestment Act 



                                        AUD/CG-11-31 

                                         August 2011 





                                          Important Notice

This report is intended solely for the official use of the Department of State or the Broadcasting
Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the
Department of State or the Broadcasting Board of Governors, by them or by other agencies or
organizations, without prior authorization by the Inspector General. Public availability of the
document will be determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552.
Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                                         UNCLASSIFIED

                                                                                                     .
                                                           United States Departme nt of State
                                                           and the Broadcasting Board of Governors

                                                           Office of Inspector General




                                         PREFACE


     This report was prepared by the Office oflnspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended . It is one of a series of audit, inspection, investigative, and special reports prepared by
01G periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment orthe strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                            Harold W. Geisel
                                            Deputy Inspector General
                                                            UNCLASSIFIED


                                                     TABLE OF CONTENTS

 
Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2 


Objective ..............................................................................................................................3 


Audit Results........................................................................................................................3 


           Recovery Act Funds Were Managed Effectively ....................................................3 

           Funds Were Expended as Planned, and Cost Savings Were Realized ....................4 

           Replacement Cycle for Computer Monitors Should Be Extended To Save 

           Money ......................................................................................................................4 


Appendices 

      A. Scope and Methodology......................................................................................6 

      B. Bureau of Information Resource Management Response ...................................9 


Major Contributors to This Report ....................................................................................11 





                                                            UNCLASSIFIED


                                                                                                                                              .

                                     UNCLASSIFIED





Acronyms

Department     Department of State
FAM            Foreign Affairs Manual
GITM           Global Information Technology Modernization
               program
IPA            independent public accountant
IRM            Bureau of Information Resource Management
IT             information technology
OIG            Office of Inspector General
Recovery Act   American Recovery and Reinvestment Act of 2009




                                     UNCLASSIFIED


                                                                .

                                               UNCLASSIFIED


                                           Executive Summary
        The American Recovery and Reinvestment Act of 20091 (Recovery Act) included
$600 million in funding for infrastructure improvements at the Department of State (Department)
and established new reporting requirements related to the award and use of Recovery Act funds
to promote transparency and accountability. The Recovery Act also included mandates for the
Department’s Office of Inspector General (OIG) to provide oversight and audits of programs,
grants, and activities funded by the Act.

        This audit report, one of several reports being issued by OIG on the use of Recovery Act
funds by the Department, presents the results of a project for replacing aging desktop
workstations (computers and monitors) for which Recovery Act funds of $13 million2 were spent
as part of a total $33.5 million investment in the Department’s Information Technology (IT)
Platform. This particular project was part of the Department’s Global Information Technology
Modernization (GITM) program, which provides a 4-year modernization cycle to ensure that
every domestic and overseas classified and unclassified system is modernized.

        The objective of this audit was to determine whether the Department’s project for
replacing desktop workstations met its planned objectives and complied with Recovery Act
requirements while ensuring that Recovery Act funds were used only for their intended purposes.

        OIG found that the Bureau of Information Resource Management (IRM) administered
Recovery Act funds effectively to meet GITM program goals and requirements. The
replacement desktop workstations were appropriately procured, shipped, and installed as
planned, and all funds for the project were expended and used for authorized purposes.3 OIG
also determined that a money-saving, competitive “reverse auction” process4 was used by
Bureau of Administration acquisition officials to procure the equipment, resulting in savings of
approximately $950,000, and OIG found that the expected outcomes from the Department’s
program plan were achieved.

       OIG identified a cost-savings measure for the GITM program. Computer monitors are
replaced on a 4-year schedule and could be extended to a 6-year schedule without adversely
impacting operational efficiency. OIG estimates that moving to a 6-year replacement cycle for
computer monitors could result in an annual savings of $587,000.

      OIG recommended that IRM revise the 4-year replacement schedule for computer
monitors provided through the GITM program to a 6-year schedule.

      In its response to the draft report (see Appendix C), IRM agreed with the
recommendation, stating that it would begin implementation in FY 2012. Based on the response,


1
  Pub. L. No. 111-5. 

2
  The $1.2 million of the $13 million was spent to provide technical support services for the replaced workstations.

3
  Only existing IRM funds (that is, non-Recovery Act funds) were spent to ship and install the new workstations. 

4
  The reverse auction process is an online bidding process in which potential contractors bid against each other to

win business.


                                                    1
                                               UNCLASSIFIED
                                        UNCLASSIFIED


OIG considers the recommendation resolved, and it will be closed pending review and
acceptance of documentation for the actions OIG specified.

                                          Background
         On February 17, 2009, President Barack Obama signed the American Recovery and
Reinvestment Act of 2009, which provided $787 billion for tax relief ($288 billion), state and
local fiscal relief ($144 billion), Federal social programs ($244 billion), and infrastructure ($111
billion).

        As part of the $111 billion in infrastructure funding, the Department received and is
overseeing $600 million that was invested in three primary areas: Diplomatic and Consular
Programs, Capital Investment Fund, and the International Boundary and Water Commission.
This $600 million includes a funds transfer of $38 million to the United States Agency for
International Development. The IT Platform, within the Capital Investment Fund, represents
$33.5 million, as shown in Table 1.

Table 1. Program/Activity and Recovery Act Funds
                                                                  Amount
                      Program/Activity                            (In 000s)
 Diplomatic and Consular Programs                                 $ 90,000
     Hard Skills Training Center                                  $ 70,000
     Passport Facilities                                          $ 15,000
     National Foreign Affairs Training Center                     $ 5,000
 Capital Investment Fund                                          $290,000
     Data Center                                                  $120,000
     IT Platform                                                  $ 33,500
     Cyber Security                                               $ 98,500
 Transfer to U.S. Agency for International Development            $ 38,000
 International Boundary and Water Commission                      $220,000
 Construction
                                                   Total          $600,000
Source: Department of State.

        The project to replace aging desktop workstations (computers and monitors) used
$13 million in Recovery Act funds as part of a total of $33.5 million committed to improve the
Department’s IT Platform. The Department’s GITM program provides a 4-year modernization
cycle to ensure that every domestic and overseas classified and unclassified system meets
required standards to execute the diplomatic mission worldwide. As described in the
Department’s Recovery Act External Program Plan, dated July 10, 2009, for using Recovery Act
funds, the project will replace 12,852 antiquated workstations essential for classified and
unclassified processing domestically and at 285 overseas embassies and consulates. It will also
provide technical support services to establish responsive and knowledgeable customer support
for deployed technologies. It is further expected that the new workstations will increase
operational efficiencies, lower overall maintenance costs, and strengthen the security posture for
computer systems throughout the Department. IRM is responsible for meeting program


                                             2
                                        UNCLASSIFIED
                                             UNCLASSIFIED


objectives and requirements and for administering Recovery Act funds to replace the desktop
workstations.

       Along with the funding received by the Department, the Recovery Act mandates that
Offices of Inspector General provide oversight and audits of programs, grants, and activities
funded by the Recovery Act. OIG has undertaken audits related to Recovery Act funding of
Department programs and activities to minimize the risks of inefficient or improper actions that
could put taxpayers’ money at risk.

                                                 Objective
        The objective of this audit was to determine whether the Department’s project for
replacing desktop workstations met its planned objectives and complied with Recovery Act
requirements while ensuring that Recovery Act funds were used only for their intended purposes.

                                              Audit Results

Recovery Act Funds Were Managed Effectively
       OIG found that IRM achieved expected project outcomes and complied with Recovery
Act requirements. OIG also determined that the requirement to procure the equipment was
competed using the reverse auction process, which resulted in savings to the Department of
approximately $950,000.

        OIG accounted for all the computers shipped to the locations sampled, as shown in Table
2, and determined that controls for receiving, storing, and shipping the desktop workstation
equipment were effective. All computers were accounted for, but 11 (2 percent) of 546
computers did not have numbered Department property stickers, as required by the Foreign
Affairs Manual (FAM).5

Table 2. Posts Sampled That Received Desktop Workstations
                                 Computers               Computers
    Receiving Post                Shipped               Accounted for
    Addis Ababa                                48                       48
    Bangkok                                   206                      206
    Brussels                                   86                       86
    Kuala Lumpur                               37                       37
    Rome                                       93                       93
    Tunis                                       3                        3
    Vatican City                               10                       10
    Vienna                                     63                       63
                     Total                    546                      546
Source: OIG analysis.

5
 14 FAM 413.5, “Receiving Action,” requires a bar code label to be immediately affixed to accountable,
nonexpendable property upon receipt. All missing bar code labels were subsequently affixed to the equipment
before the OIG audit team left post.

                                                  3
                                             UNCLASSIFIED
                                             UNCLASSIFIED



Funds Were Expended as Planned, and Cost Savings Were Realized
        OIG found that Recovery Act funds of $13 million planned for the desktop workstation
replacement program were spent as planned and that projected costs savings were realized by
using an established bulk procurement methodology. The specific method used by the
Department, according to Bureau of Administration officials, was the reverse auction—an online
bidding process in which potential contractors bid against each other to win business. According
to the Department’s Recovery Act External Program Plan, reverse auctions have been found to
be significantly less expensive per item than buying the items from comparable General Services
Administration schedules.

       The Department has a contract with FedBid.com for the use of its online tool to conduct
reverse auctions. Under the contract, this service is free to the Department, and the winning
vendor pays FedBid.com 3 percent of the winning bid, up to a maximum of $10,000. Because of
the competition generated by this type of auction, the Department generally obtains a savings of
approximately 7 percent and sometimes as great as 10 percent. Also, more than 80 percent of
Department contracts using reverse auctions are awarded to small businesses, which helps the
Department meet its small business contracting goals.

Replacement Cycle for Computer Monitors Should Be Extended To Save
Money
        During OIG’s fieldwork, three post Information Management Officers stated that the 4-
year GITM refresh rate for computer monitors was likely unnecessary and could be extended to
6 years without negatively impacting the diplomatic mission. These officials agreed that the 4-
year refresh rate for desktop computers was appropriate but not necessary for the accompanying
computer monitors.

        A December 2008 directive6 from the Office of Surface Mining Reclamation and
Enforcement, U.S. Department of the Interior, provided guidance regarding the request,
approval, acquisition, inventory, and disposal of IT assets. Specifically, the directive established
a timeline for monitors to be replaced every 5 years but not to exceed 8 years. The directive
further noted the importance of Capital Planning Investment Control as a “systematic process for
selection, control, and evaluation of IT investments” and that this process “is mandated by the
Clinger-Cohen Act of 1996, which requires Federal agencies to use a disciplined process to
acquire, use, maintain, and dispose of [IT] assets.” In addition, a European Commission study7
determined that the average economic lifetime for LCD (liquid crystal display) monitors was 6
years. Therefore, if the Department were to use a 6-year refresh rate for computer monitors, it
would achieve significant savings over the long term by adopting this standard as part of refresh
guidance on governing IT hardware replacement.


6
  Directive Systems, “Hardware and Software Management,” U.S. Department of the Interior (No. IT-2, Dec. 9, 

2009). 

7
  “Personal Computers (desktops and laptops) and Computer Monitors” (IVF Report 07004), IVF - Industrial 

Research and Development Corporation (Sweden, Aug. 2007), p. 68.


                                                  4
                                             UNCLASSIFIED
                                           UNCLASSIFIED

       Based on FY 2010 acquisition and shipping costs, OIG determined that the annual cost
savings by implementing a 6-year replacement cycle for computer monitors would be $586,704,
as shown in Table 3.

Table 3. Potential Cost Savings by Extending the Monitor Refresh Cycle
          4-Year Cycle                        6-Year Cycle                           Savings
                                             5,339 Monitors
  8,008 Monitors            Annual            Needed Each              Annual       Annual Cost
 Needed Each Year           Costs                 Year                 Costs          Savings

   Purchasing Costs        $1,409,408       Purchasing Costs            $939,664     $469,744
   Shipping Costs            $350,704       Shipping Costs               $233,744    $116,960
   Total per year          $1,760,112       Total per year             $1,173,408    $586,704
Source: OIG analysis using FY 2010 acquisition and shipping cost data from IRM.

       Recommendation 1. OIG recommends that the Bureau of Information Resource
       Management revise the 4-year replacement schedule for computer monitors provided
       through the Global Information Technology Modernization program to a 6-year schedule.

       IRM Response: IRM agreed with the recommendation, stating that beginning in FY
       2012, the Department would place the new 22-inch monitors the Department plans to
       deploy on a 6-year cycle.

       OIG Analysis: Based on the response, OIG considers the recommendation resolved.
       The recommendation can be closed pending OIG’s review and acceptance of
       documentation showing that IRM has implemented the 6-year replacement cycle
       beginning in FY 2012.




                                                5
                                           UNCLASSIFIED
                                       UNCLASSIFIED



                                                                                     Appendix A
                                  Scope and Methodology
        The purpose of this audit was to determine whether the Department of State project for
replacing desktop workstations met its planned objective and complied with American Recovery
and Reinvestment Act of 2009 (Recovery Act) requirements. This audit is one of two audits
conducted by the Department of State (Department), Office of Inspector General (OIG), to
examine Recovery Act-funded improvements to the Department’s Information Technology (IT)
Platform. The other audit has a similar objective, but it pertains to a $10 million expenditure to
replace telephone systems at three diplomatic posts. Additionally, an independent public
accountant (IPA) under contract to OIG is auditing other Recovery Act projects under the
Department’s Capital Investment Fund, including projects to construct data centers and improve
cyber security.

        OIG conducted this audit from May 2010 through March 2011 in accordance with
generally accepted government auditing standards. Those standards require that the auditors
plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for its findings and conclusions based on audit objectives. OIG believes that the evidence
obtained provides a reasonable basis for the findings and conclusions based on the audit
objective.

       Audit work was performed in Washington, D.C., at the Bureaus of Administration and
Information Resource Management (IRM).

       At the Bureau of Administration, OIG interviewed officials to learn the specifics of the
process used to procure the desktop workstations and later determined whether that process was
in compliance with Federal regulations. For its review, OIG examined internal planning
documents and assessments of project progress and reviewed all 14 purchase orders for the
Recovery Act-funded equipment to determine whether funds were spent as intended.

        At IRM, OIG interviewed officials and reviewed supporting documentation related to
Recovery Act obligations and expenditures for the desktop workstations. OIG also met with
IRM officials to learn of IRM’s procedures for receiving, warehousing, and then shipping the
workstations and to obtain property serial numbers and schedules for shipping the workstations
and related equipment to various diplomatic facilities worldwide. OIG visited the Department’s
warehouse in Springfield, VA, where workstations are stored before they are shipped to various
domestic and overseas posts. At the warehouse, OIG assessed the Department’s inventory
controls and its safekeeping of equipment. In addition, OIG reviewed IRM’s monitoring of
established schedules, including any delays and their impact.

        To accomplish audit fieldwork steps involving property verification, installation, and a
review of inventory records, OIG judgmentally selected eight overseas posts based on the
number of desktop workstations being replaced. The criteria for selection of the eight posts also
included geographical considerations, such as the ability to accomplish fieldwork steps and meet
objectives for other OIG Recovery Act audits while at those posts. The eight posts and the
number of desktop workstations shipped to them are as follows: Addis Ababa (48), Bangkok

                                            6
                                       UNCLASSIFIED
                                       UNCLASSIFIED


(206), Brussels (86), Kuala Lumpur (37), Rome (93), Tunis (3), Vatican City (10), and Vienna
(63).

        While at these overseas posts, OIG tried to locate all Recovery Act-funded computers
that had been shipped to ensure that serial numbers matched those numbers listed on shipping
manifests and that each computer had been properly recorded into post inventory records with
numbered Department property stickers attached. OIG discussed any relevant findings with post
officials before leaving a post.

       During the audit, OIG partnered with an IPA that was under contract to OIG for audits of
other Recovery Act-funded projects concerning IT. The IPA performed audit procedures to
determine whether:

      Funds were awarded and distributed in a prompt, fair, and reasonable manner.
      Recipients and uses of all funds were transparent to the public and the public benefits of
       the funds were reported clearly and accurately and in a timely manner.
      The program had taken action to identify and mitigate instances of fraud, waste, error,
       and abuse.

       To ensure the accuracy and completeness of program plans and financial records, the IPA
performed the following actions:

   	 Reconciled balances on financial records within the Department’s Global Financial
      Management System (GFMS) with information contained in the Recovery Act weekly
      financial activity reports posted by the Department as of the end of FY 2010 and
      additional interim dates.
   	 Analyzed year-end obligation totals for the IT Platform operations portion of the Capital
      Investment Fund that includes the Global Information Technology Modernization
      program.
   	 Verified that Recovery Act funds for each project were tracked and reported separately
      from other funds.

Work Related to Internal Controls

To assess the adequacy of internal controls related to the weekly financial activity reports, the
accountability of Recovery Act funds, and the monitoring of projects to avoid cost overruns and
delays, the IPA performed the following actions:

     Obtained an understanding of processes and procedures.
     Reviewed source documentation and other types of evidence to confirm the adequacy of
      stated controls.
     Compared weekly report balances with details and reconciled differences in the
      Department’s GFMS.
     Reviewed internal reports related to the compilation of balances and amounts for
      reporting to the public.


                                            7
                                       UNCLASSIFIED
                                       UNCLASSIFIED



     Determined that separate Treasury Account Symbols were established for Recovery Act
      programs.
     Verified proper approval over transactions involving Recovery Act funds.

Tests for Data Reliability

       To assess data reliability, the IPA selected a testing sample and performed the following
procedures:

   	 Reviewed contract files to determine whether contracts were competitively awarded and
      at fixed cost.
   	 Tested to determine whether particular contracts were disclosed and listed within a
      separate section on Recovery.gov if such contracts were determined to have been
      awarded noncompetitively or not at fixed price.
   	 Compared weekly financial activity report balances with underlying schedules and
      GFMS details.

Use of Computer-Processed Data

       The IPA used GFMS details and reconciling schedules to compare the balances reported
in GFMS with information contained in the Recovery Act weekly financial activity reports
posted by the Department. The IPA determined that GFMS data and schedules were reliable
based on a selected sample and testing of internal controls involving the weekly reporting
process.




                                            8
                                       UNCLASSIFIED
                                     UNCLASSIFIED



                                                                                                   Appendix B



                                                             United States Department of State

                                                             Wasbillgtoll. D. C.   20520



                                                           July 20, 2011



UNCLASS IFIED
MEMORANDUM

TO:            OIG - Howard W. Geisel

FROM:          IRMlBMP/SPO - DeAnne Bryant

SUBJECT:       Draft OIG Report on the Audit of Replacement of Aging Desktop Workstations at
               the Department of State with Funds Provided by the American Recovery and
               Reinvestment Act


Thank you for the opportunity to provide a response to the subject report, Audit of Replacement
of Aging Desktop Workstations at the Department of Slate Wilh Funds Provided by The
American Recovery and Reinvestment Act (AUDI11-XX - June 2011). This memorandum is to
inform you that IRM agrees with Recommendation 1 in the subject report. Additionally, there
are several clarifications IRM would like to make in reference to the OIG Report as noted below.


Recommendation 1: OIG recommends that the Bureau of Infonnation Resource Management
revise the 4-year replacement schedule for computer monitors provided through the Global
Information Technology Modernization program to a 6-year schedule.

 IRM Response (06/2011): IRM agrees with the recommendation to revise the monitor
 replacement life-cycle from 4 to 6 years. Starting in FY2012, the new 22-inch monitors that
 GITM will deploy will be placed on a 6-year modernization cycle.

Clarification on Funding: The OIG report states that "This audit report, one of several reports
being issued by OIG on the use of Recovery Act funds by the Department, presents the results of
a project for the replacement of aging desktop workstations (computers and monitors) for which
$13 million in Recovery Act funds was spent as part of a total $33.5 million investment in the
Department's Information Technology (IT) Platfonn."

 IRM Response (06/2011): These statements indicate that all of $13M received by IRM was
 used to fund workstations, however, IRM used $ I .2M to fund technical support and the
 remaining $11.8M for purchasing and receiving computers and monitors for a total of $ 13M.




                                       UNCLASSIFIED




                                          9

                                     UNCLASSIFIED
                                     UNCLASSIFIED





Clarification on Procurement and Shipping: The OIG report states that "The replacement
desklOp workstations were appropriately procured, shipped. and installed as planned, and all
funds for the project were expended and used for authorized purposes."

 IRM Response (06/2011): The statement indicates that shipping and installation were also
 completed using ARRA-provided funds. IRM notes that ARRA provided funds were used
 solely for the procurement and receipt of the equipment prior to being sent to US missions
 overseas. Only existing (non-ARRA) program funds were expended to cover the shippi ng and
 installation processes.

Clarification on Inventory Tracking: The OIG report states that "OIG accounted for all of the
computers sh ipped to the locat ions sampled. as shown in Table 2, and determined that controls
for receiving. storing, and shipping the desktop workstation equipment were effective. All
computers were accounted for, but II (2 percent) of 546 computers did not have numhered
Depal1ment property stickers, as required by the Department's Foreign Affairs Manual (FAM).

 IH.M Response (06/2011): IRM notes that it is the responsibilit y of the post GSO andlor IT
 staff to affix the required property stickers on received equipmenl.




cc: De IO/8MP - _ _ _     l1lil1li
   IRM/BMP/SPO/SPD -
   M/PRI-

                (b) (6)




                                      UNCLASSIFIED




                                          10 

                                     UNCLASSIFIED

                                  UNCLASSIFIED



                         Major Contributors to This Report
Richard A. Astor, Director
Contracts and Grants Division
Office of Audits

Mark P. Taylor, Audit Manager
Contracts and Grants Division
Office of Audits

Cindy A. Nelson, Senior Auditor
Contracts and Grants Division
Office of Audits




                                       11
                                  UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs
         and resources hurts everyone.

       Call the Office of Inspector General
                    HOTLINE
                   202-647-3320
                or 1-800-409-9926
         or e-mail oighotline@state.gov
      to report illegal or wasteful activities.

              You may also write to
           Office of Inspector General
            U.S. Department of State
              Post Office Box 9778
              Arlington, VA 22219
           Please visit our Web site at:
               http://oig.state.gov

        Cables to the Inspector General
       should be slugged “OIG Channel”
           to ensure confidentiality.
